No. 21-121

 

In THE

Supreme Court of the United States

CHRISTIANA TAH, RANDOLPH MCCLAIN,

Petitioners,
v.

GLOBAL WITNESS PUBLISHING, INC., GLOBAL WITNESS,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

6,306 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

 

Colin Casey Hogdn
Wilson-Epes Printing Co., Inc.
